                            CLOSEOUT FOR M97100043

         On 6 October 1997, OIG received an allegation from an officer of an institution'
 that the subject2 may have committed misconduct in science. It was alleged that the
 subject failed to give appropriate credit to a graduate student3 who supplied ideas and
 information that were used in the development of software under an NSF grant4on which
 the subject was co-PI.

         NSF first funded this project to develop computer software in 1988.' After the
 second proposal was submitted in 1991, the student, at the suggestion of the subject, gave
 a presentation at the project's weekly meeting in which he demonstrated and discussed
 certain software which he had previously developed. According to the student, the
 presentation was very well received, particularly by the subject. After attending the
 weekly meetings a few more times, the student directed his attention to other activities,
 and ceased interacting with the group.

         However, before the student's involvement ceased, the PI and co-PI submitted a
letter in response to an NSF program officer's queries regarding their pending proposal to
NSF for support of the project. The letter explained their plans for the project, and
mentioned the student's software, describing it as "remarkable," and "revolutionary."
From his knowledge of the letter, the student believed that his software contributed
substantially to the development of the final product, and the co-PI'S failure to
acknowledge or attribute his contribution was misconduct in science.

        In response to the student's allegation of misconduct in science, the institution
appointed an investigation committee. The subject's position was that the student should
not have been acknowledged because the final form of the product two years later was
based primarily on refinements of concepts developed in the first NSF-funded proposal,
and the final product did not incorporate the features of the student's software that were
praised in the letter. To assess whether the student should have been credited for a
contribution to the project, the institution's investigation committee focused on a
comparison of the features of the software at different stages-when the student first
spoke to the group, during the ensuing weeks, and the final product.

        In the committee's view, the PI'S notes, the statements of other witnesses, and the
final version of the software substantially corroborated the subject's account of the
development of the software. The PI'S notes indicated that contrary to the student's
allegations, certain features of the software had already been incorporated prior to the
student's involvement. In addition, the software engineer6 stated that he did not use the




                                   Page 1 of 2    -                         M97-43
                                CLOSEOUT FOR M97100043

  student's ideas in writing the code for the programs. A senior researcher7 believed that
  he had been the first to incorporate some of the key features at issue into a program, and
  that the student's program was a brilliant extension of his program. Moreover, the major
  features of the final product had been developed about a year before the student presented
  his ideas t'o the group, and the final version of the software did not utilize the special
  features demonstrated by the student. Thus, the committee concluded that the student's
  ideas did not contribute to the development of the final version of the software.

          Based on its assessment of the facts, the committee considered whether the
  student was justified in making his allegation, and whether the subject's actions were
 misconduct in science. Because the project team did not inform the student how the
 software had been developed, the majority of the committee reached the conclusion that
 the student had good reason to believe that he had contributed substantially to the final
 version of the software, and accordingly, to file his complaint. In addition, the committee
 thought that the student's clinical experience and new ideas stimulated the thinking of the
 project team and strengthened its NSF proposal. Nonetheless, the committee concluded
 that although it would have been appropriate to have acknowledged the student in the
 documentation that was published with the software, the student's contributions did not
 warrant co-authorship.

        While a majority of the committee believed that the failure to acknowledge the
 student was undesirable, the committee unanimously concluded that the lack of
 acknowledgment by the subject was not misconduct in s ~ i e n c e . We
                                                                     ~ concur with the
 committee's assessment. Accordingly, this case is closed and no further action will be
 taken.

 cc:     Integrity, IG




m e committee assessed the evidence under the clear and convincing standard, rather than NSF's standard
of the preponderance of the evidence. Although OIG requested an evaluation using the preponderance of
the evidence standard, the committee "believe[d] that the appropriate standard for such charges should be
one of clear and convincing evidence," and thus was "reluctant to do so and set a precedent for judging
subsequent cases by two standards." Furthermore, the committee stated that "In no way should this
reluctance be seen to suggest that the committee would have come to a different conclusion if a less
stringent standard of evidence had been applied in this case."
                                        Page 2 of 2                                     M97-43
